NOTE: Because this report assesses potential vulnerabilities in IT security, only a
summary of the report is posted.


Report Title:                Audit of NARA’s Network Perimeter
Report Number:               06-01
Date Issued:                 December 15, 2005




Audit of NARA’s Network Perimeter
The NARA OIG performed an audit of NARA’s network perimeter 1 to determine
whether the controls surrounding the boundary of NARA’s network (NARAnet) provide
reasonable protection from external intruders.

Our audit revealed that NARA’s network perimeter security was not adequate and
exposed the agency to significant information security risks. This condition existed
because management has not adopted, incorporated, and enforced pertinent standards
promulgated to reduce risk to an acceptable level. Numerous NIST Special Publications,
highlighted in the detailed findings, document the minimum requirements that should be
considered, implemented, and tested concerning local and wide area network perimeter
security. When the network perimeter is not adequately protected, not only does the risk
of intrusion increase, but the network is more vulnerable to nefarious individuals or
groups seeking to harm the network infrastructure.

We made eight recommendations to improve and secure NARA’s network perimeter
security. Management concurred with all but one recommendation and promptly initiated
management action to address our recommendations.




1A perimeter is the fortified boundary of the network that might include routers, firewalls, IDSs, VPN
devices,
  software, DMZs, and screened subnets.
